Credit Card Rate Disclosure

Interest Rates and Interest
Charges

Visa Platinum
Option 1

Visa Platinum
Option 2

Annual Percentage Rate (APR)
for Purchases

10.90%
Fixed

12.90%
Fixed

APR for Balance Transfers

10.90%
Fixed

12.90%
Fixed

APR for Cash Advances

10.90%
Fixed

12.90%
Fixed

Penalty APR and When It Applies

None
Your due date is at least 25 days for purchases, 0 days for

How to Avoid Paying Interest on cash advances after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire
Purchases
balance by the due date(Grace Period) each month.
Minimum Interest Charge

If you are charged interest, the charge will be no less than
$0.00

For Credit Card Tips From the
Federal Reserve Board

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Federal Reserve
Board at http://www.consumerfinance.gov/learnmore.

Fees

Visa Platinum 1

Visa Platinum 2

$12.00

$0.00

Annual Fee
Transaction Fees
Balance Transfer

$0.00

Cash Advances

$0.00

Foreign Transaction

$1.0%

Penalty Fees
Late Payment*

Over-the-Credit-Limit

$27 1st occurrence and $37
subsequent occurrence
$0.00

Returned Payment*

$27 1st occurrence and $37
subsequent occurrence
*Late or Returned Payments will be charged $27 for the first occurrence and $37
for any subsequent occurrence of the same type that occurred during the same
billing cycle or during one of the next six billing cycles.
How We Will Calculate Your Balance:We use a method called "average daily balance"(including new
purchases).*An explanation of this method is provided in your account agreement.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights
is provided in your account agreement.

YOUR BILLING RIGHTS

When you use the ...

This notice contains important information
about your rights and our responsibilities
under the Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR
QUESTIONS ABOUT YOUR
STATEMENT. If you think your
statement is wrong, or if you
need more information about a
transaction on your statement,
write us on a separate sheet
at the address listed on your
statement. Write to us as soon
as possible. We must hear from
you no later than 60 days
after we sent you the first
statement on which the error
or problem appeared. You can
telephone us, but doing so
will not preserve your rights.

to pay any finance charges
related to any questioned
amount. If we didn't make a
mistake, you may have to
pay finance charges, and
you will have to make up
any missed payments on the
questioned amount. In
either case, we will send
you a statement of the
amount you owe and the date
that it is due.

If you fail to pay the
amount that we think you
owe, we may report you as
delinquent. However, if our
explanation does not
In your letter, give us the
satisfy you and you write
following information:
Your name and account number. to us within ten days
telling us that you still
The dollar amount of the
refuse to pay, we must tell
suspected error.
anyone we reported you to
Describe the error and
explain, if you can, why you that you have a question
about your statement. And,
believe there is an error.
If you need more information, we must tell you the name
describe the item you are not of anyone we report you to.
We must tell anyone we
sure about.
report you to that the
matter has been settled
If you have authorized us to
between us when it finally
pay a credit card account
automatically from your share is.
account or sharedraft account,
If we don't follow these
you can stop the payment on
any amount you think is wrong. rules, we can't collect the
first $50 of the questioned
To stop the payment your
amount, even if your
letter must reach us three
statement was correct.
business days before the
automatic payment is scheduled
SPECIAL RULE FOR CREDIT
to occur.
CARD PURCHASES. If you have
a problem with the quality
RESPONSIBILITIES AFTER WE
of property or services
RECEIVE YOUR WRITTEN NOTICE.
that you purchased with a
We must acknowledge your
letter within 30 days, unless credit card, and you have
we have corrected the error by tried in good faith to
then. Within 90 days, we must correct the problem with
the merchant, you may have
either correct the error or
the right not to pay the
explain why we believe the
remaining amount due on the
statement was correct.
property or services. There
After we receive your letter, are two limitations on this
right: (a) You must have
we cannot try to collect any
amount you question, or report made the purchase in your
home state or, if not
you as delinquent. We can
continue to send statements to within your home state
within 100 miles of your
you for the amount you
questioned, including finance current mailing address;
charges, and we can apply any and (b) The purchase price
must have been more than
unpaid amount against your
credit limit. You do not have $50.
to pay any questioned amount
These limitations do not
while we are investigating,
but you are still obligated to apply if we own or operate
the merchant, or if we
pay the parts of your
mailed you the
statement that are not in
advertisement for the
question. If we find that we
property or services.
made a mistake on your
statement, you will not have

VISA Platinum Credit Card for the
purchase of goods or services,
the following benefits are yours!
Travel Accident Insurance
You, your spouse and dependent children up to
age 19 (age 25 if a full-time student at any
institution of higher learning) are
automatically covered with common carrier
travel accident insurance every time you
travel by air, bus, train, ship, taxi, or any
other common carrier anywhere in the world
when you charge your entire fare to our card.
This coverage is provided to you at NO EXTRA
COST.

With Visa Platinum Option 1 Only
ADVANTAGE-COMPLETE
Travel Reservation Service
Concierge Services
Personal Shopper
Prescription Discounts
Payment Card Registration
Key Registration
Travel Protection
- Lost Luggage Locator
Service

Bonus Travel Dividends
Automobile Rental Insurance
Vision Care Discounts
Medical Assistance Services
Quarterly Newsletter
Auto Rental Discount

- Lost or Damaged Luggage
Insurance
- Hotel-Motel Burglary

CARDCENTIVES-PREMIUM
$1,000 Identity Theft
Insurance

Identity Theft Victim
Assistance

Payment Card Registration

Travel Reservation Service

90-Days Product Protection

Extended Warranty

Personal Shopper

Price Guaranty

Concierge Services

Family Medical Information
Card

